    ANNUAL ACCOUNTING AND 

AUTHENTICATION OF DRUG CONTROL

FUNDS AND RELATED PERFORMANCE

       FISCAL YEAR 2010 

         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


            Audit Report 11-15 

              January 2011

  ANNUAL ACCOUNTING AND AUTHENTICATION OF

 DRUG CONTROL FUNDS AND RELATED PERFORMANCE

               FISCAL YEAR 2010


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This report contains the attestation review reports of the U.S.
Department of Justice’s Drug Enforcement Administration, Federal Bureau of
Prisons, National Drug Intelligence Center, Office of Justice Programs, and
Organized Crime Drug Enforcement Task Forces Program’s annual
accounting and authentication of drug control funds and related performance
for the fiscal year ended September 30, 2010. The Office of the Inspector
General (OIG) performed the attestation reviews. The report and annual
detailed accounting of funds expended by each drug control program agency
is required by 21 U.S.C. §1704(d), as implemented by the Office of National
Drug Control Policy’s Circular, Drug Control Accounting, dated May 1, 2007.

       The OIG prepared the reports in accordance with attestation standards
contained in Government Auditing Standards, issued by the Comptroller
General of the United States. An attestation review is substantially less in
scope than an examination and, therefore, does not result in the expression
of an opinion. We reported that nothing came to our attention that caused
us to believe the submissions were not presented, in all material respects, in
accordance with the requirements of the Office of National Drug Control
Policy’s Circular.
